No.
IN THE
SUPREME COURT OF THE UNITED STATES

Arthur 0. Armstrong,
Petitioner
v.
NORTH CAROLINA, et al
Respondents.
PROOF OF SERVICE
I,

Arthur O. Armstrong

do swear or declare that on this date. May 5.

2021. as required by the Supreme Court Rule 29.1,1 have served a petition for writ of certiorari
on each party in the above proceeding, or that party's counsel and every other person required
to be served by depositing an envelope containing the above documents in the United States
mail properly addressed to each of them and with first-class postage prepaid, or by delivery to a
third party commercial carrier for delivery within 3 calendar days: Josh Stein, Esq. Office of the
Attorney, Department of Justice P. O. Box 629. Raleigh. NC 27602
I declare under penalty of perjury that the foregoing is true ajwkcorrect..
Executed on May 5, 2021.

&

